                              December 22, 2009


Message From the Chairman 

Recovery AccountabUity and Transparency Board 

The American Recovery and Reinvestment Act of 2009 (Recovery Act) is designed to provide
historic levels oftransparency and accountability. Recipients of certain Recovery Act funds
must report, on a quarterly basis, specific details about the funds they receive. These details
include the total amount offunds received, a list ofprojects for which the funds are being used,
and information about the number ofjobs created or saved as a result of the funds received. This
information is posted on www.Recovery.gov, a publicly available website. Making this data
available to the public significantly increases transparency and helps provide greater
accountability of the funds.

The Recovery Accountability and Transparency Board (Recovery Board) recognizes the
importance ofdata quality as part of the effort to bring transparency and accountability to the
Recovery Act funds. In addition, many will evaluate the success of the Act based on the
accuracy of the data reported. In light of the importance ofthe quality of the Recovery Act data,
the Recovery Board has worked with Federal Inspectors General to establish a multi-phased
review process to look at the quality ofthe data submitted by Recovery Act recipients. The first
phase of this multi-phased review process is outlined in this report. This initial review reflects a
snap-shot of data quality review processes established by agencies in anticipation of the data to
be submitted by Recovery Act recipients. Because this initial review was conducted in
September 2009 before recipients had submitted any data, the review did not test the
effectiveness ofthe agencies' processes nor did the review look at the accuracy of any specific
data elements. Instead, the review was designed to determine ifagencies had developed data
quality reviews in anticipation of the data to be submitted. The review also provided an
opportunity for the Federal Inspectors General to make recommendations on how agencies could
improve data quality review processes.

Over the coming months, the Recovery Board and Federal Inspectors General will issue
subsequent reports that look at the causes ofthe inaccurate reporting, the effectiveness ofthe
agency data quality review processes, and in some cases, Federal Inspectors General will review
the accuracy of specific recipient reports. This additional work will speak more directly to the
accuracy ofthe data submitted by Recovery Act recipients.

In the meantime, the information contained in this report and the individual agency-specific 

reports will help agencies refine the data quality review processes and work toward improving 

the quality of data submitted by Recovery Act fund recipients. 



C~~\-- . . ." '-~
Earl E. Devaney
     DEPARTMENT OF HEALTH & HUMAN SERVICES                               Office of Inspector General

                                                                          Washington, D.C. 20201




November 25, 2009

Report Number: A-09-10-01002

The Honorable Earl E. Devaney
Chairman
Recovery Accountability and Transparency Board
1717 Pennsylvania Avenue NW., Suite 700
Washington, DC 20006

Dear Mr. Devaney:

The enclosed final report provides a summary of the Inspectors General (IG) reports on Federal
agencies’ processes for performing limited data-quality reviews of recipient-reported information
on the use of American Recovery and Reinvestment Act (Recovery Act) funds. We prepared
this report at the request of the Recovery Accountability and Transparency Board. We vetted
this report with the 29 IGs responsible for Recovery Act oversight and addressed their comments
as appropriate.

If you have any questions or comments about this report, please do not hesitate to call me, or
your staff may contact Joseph E. Vengrin, Deputy Inspector General for Audit Services, at
(202) 619-3155 or through email at Joseph.Vengrin@oig.hhs.gov.

                                             Sincerely,



                                             /Daniel R. Levinson/
                                             Inspector General


Enclosure
Department of Health and Human Services
            OFFICE OF
       INSPECTOR GENERAL




  SUMMARY OF INSPECTORS
GENERAL REPORTS ON FEDERAL
  AGENCIES’ DATA-QUALITY
    REVIEW PROCESSES




                       Daniel R. Levinson
                        Inspector General

                        November 2009
                        A-09-10-01002
                        Office of Inspector General
                                          http://oig.hhs.gov



The mission of the Office of Inspector General (OIG), as mandated by Public Law 95-452, as amended, is
to protect the integrity of the Department of Health and Human Services (HHS) programs, as well as the
health and welfare of beneficiaries served by those programs. This statutory mission is carried out
through a nationwide network of audits, investigations, and inspections conducted by the following
operating components:

Office of Audit Services

The Office of Audit Services (OAS) provides auditing services for HHS, either by conducting audits with
its own audit resources or by overseeing audit work done by others. Audits examine the performance of
HHS programs and/or its grantees and contractors in carrying out their respective responsibilities and are
intended to provide independent assessments of HHS programs and operations. These assessments help
reduce waste, abuse, and mismanagement and promote economy and efficiency throughout HHS.

Office of Evaluation and Inspections
The Office of Evaluation and Inspections (OEI) conducts national evaluations to provide HHS, Congress,
and the public with timely, useful, and reliable information on significant issues. These evaluations focus
on preventing fraud, waste, or abuse and promoting economy, efficiency, and effectiveness of
departmental programs. To promote impact, OEI reports also present practical recommendations for
improving program operations.

Office of Investigations
The Office of Investigations (OI) conducts criminal, civil, and administrative investigations of fraud and
misconduct related to HHS programs, operations, and beneficiaries. With investigators working in all 50
States and the District of Columbia, OI utilizes its resources by actively coordinating with the Department
of Justice and other Federal, State, and local law enforcement authorities. The investigative efforts of OI
often lead to criminal convictions, administrative sanctions, and/or civil monetary penalties.

Office of Counsel to the Inspector General
The Office of Counsel to the Inspector General (OCIG) provides general legal services to OIG, rendering
advice and opinions on HHS programs and operations and providing all legal support for OIG’s internal
operations. OCIG represents OIG in all civil and administrative fraud and abuse cases involving HHS
programs, including False Claims Act, program exclusion, and civil monetary penalty cases. In
connection with these cases, OCIG also negotiates and monitors corporate integrity agreements. OCIG
renders advisory opinions, issues compliance program guidance, publishes fraud alerts, and provides
other guidance to the health care industry concerning the anti-kickback statute and other OIG enforcement
authorities.
                                  EXECUTIVE SUMMARY

BACKGROUND

The American Recovery and Reinvestment Act of 2009 (Recovery Act), P.L. No. 111-5, was
enacted February 17, 2009, to preserve and create jobs; to assist those most affected by the
recession; to increase economic efficiency by investing in technological advances in science and
health care; to invest in transportation, environmental protection, and other infrastructure that
will provide long-term economic benefits; and to stabilize State and local budgets.

To promote transparency and accountability, section 1512 of the Recovery Act requires quarterly
reporting by recipients of certain funds made available under the Recovery Act. Each of these
recipients must submit a report to the applicable Federal agency, not later than 10 days after the
end of each calendar quarter, that shows (1) the total amount of Recovery Act funds received and
the amount that was spent or obligated, (2) a detailed list of all projects for which Recovery Act
funds were expended or obligated, and (3) detailed information on payments to subrecipients and
vendors. Further, section 1512 requires that each Federal agency make recipient information
publicly available on a Web site.

On June 22, 2009, the Office of Management and Budget (OMB) issued guidance (memorandum
M-09-21) on implementing section 1512 reporting requirements. M-09-21 specifies that Federal
agencies should perform limited data-quality reviews intended to identify material omissions
and/or significant reporting errors in the reported information and should notify recipients of the
need to make appropriate and timely changes. On September 30, 2009, OMB issued guidance on
reviewing contractor reports under section 1512.

The Recovery Act created the Recovery Accountability and Transparency Board (Recovery
Board) to provide transparency in the use of Recovery Act funds and to prevent and detect fraud,
waste, and mismanagement. To help meet its mandate, the Recovery Board requested that the
29 Inspectors General (IG) of Federal agencies receiving Recovery Act funds determine whether
the agencies had processes in place to perform limited data-quality reviews of recipient-reported
information and to notify recipients of the need to make appropriate and timely changes. As of
November 3, 2009, 20 IGs had issued 21 reports. Because many of the IGs’ assessments were
conducted before the recipients reported and corrected data, the objective of the IGs’ assessments
did not include determining whether the agencies’ processes operated effectively. However,
most of the 20 IGs indicated that they intend to evaluate the effectiveness of agency processes in
future reviews.

Fifteen of the twenty IGs assessed agency processes for reviewing information reported by both
grantees and contractors. The five other IGs advised the Recovery Board that they assessed
agency processes only for grantees because the final OMB guidance for contractors was not
available until September 30, 2009.




                                                 i
OBJECTIVE

Our objective was to summarize 21 IG reports on Federal agencies’ processes for (1) performing
limited data-quality reviews of recipient-reported information on the use of Recovery Act funds
and (2) notifying recipients of the need to make appropriate and timely changes.

SUMMARY OF RESULTS

Seventeen of the twenty-one IG reports indicated that the Federal agencies had designed
processes to (1) perform limited data-quality reviews intended to identify material omissions
and/or significant reporting errors in information reported by recipients of Recovery Act funds
and (2) notify recipients of the need to make appropriate and timely changes. Five of the
seventeen reports provided suggestions for refining or improving those processes or for
addressing quality assurance challenges. The remaining four reports contained findings related
to the processes for performing limited data-quality reviews. These reports demonstrate that the
Recovery Board, IGs, and agencies have worked together to provide transparency and
accountability in the use of Recovery Act funds.




                                               ii
                                                 TABLE OF CONTENTS

                                                                                                                                  Page

INTRODUCTION......................................................................................................................1

          BACKGROUND .............................................................................................................1
              American Recovery and Reinvestment Act.........................................................1
              Reporting Requirements for Recipients of Recovery Act Funds.........................1
              Recovery Accountability and Transparency Board .............................................3
              Inspectors General Assessments of Federal Agencies’ Data-Quality
                Review Processes..............................................................................................3

          OBJECTIVE, SCOPE, AND METHODOLOGY ...........................................................3
               Objective ..............................................................................................................3
               Scope and Methodology ......................................................................................4

RESULTS OF REVIEW ...........................................................................................................4

          CONCLUSION................................................................................................................5

APPENDIX

          INSPECTORS GENERAL REPORTS ON FEDERAL AGENCIES’ DATA-QUALITY
            REVIEW PROCESSES




                                                                   iii
                                             INTRODUCTION

BACKGROUND

American Recovery and Reinvestment Act

The American Recovery and Reinvestment Act of 2009 (Recovery Act), P.L. No. 111-5, was
enacted February 17, 2009, to preserve and create jobs; to assist those most affected by the
recession; to increase economic efficiency by investing in technological advances in science and
health care; to invest in transportation, environmental protection, and other infrastructure that
will provide long-term economic benefits; and to stabilize State and local budgets.

The Congressional Budget Office reported that the Recovery Act’s combined spending and tax
provisions are expected to cost $787 billion over 10 years, including more than $580 billion in
additional Federal spending. Selected Federal agencies have been allocated a portion of the
$787 billion. The agencies then award funds to recipients, such as State governments, through
grants, contracts, and other forms of assistance.

Reporting Requirements for Recipients of Recovery Act Funds

To promote transparency and accountability, the Recovery Act established reporting
requirements related to the award and use of Recovery Act dollars.

Section 1512 of the Recovery Act

Section 1512 of the Recovery Act requires quarterly reporting by recipients of certain funds
made available under the Recovery Act. 1 A recipient includes any non-Federal entity, other than
an individual, that receives Recovery Act funds directly from the Federal Government. Section
1512 reporting requirements apply mainly to recipients of grants, contracts, and loans for
discretionary programs, not to recipients of grants for entitlement and mandatory programs, such
as Medicaid.

Section 1512(c) requires each recipient of Recovery Act funds to report on its use of funds to the
applicable Federal agency not later than 10 days after the end of each calendar quarter. The
recipient should report:

       the total amount of Recovery Act funds received and the amount that was spent or
        obligated;

       a detailed list of all projects for which Recovery Act funds were expended or obligated,
        including the project name, description, and completion status and an estimate of the
        number of jobs created or retained; and



1
Programs subject to the reporting requirements in section 1512 of the Recovery Act are listed in Supplement 1 of
M-09-21.


                                                        1
       detailed information on payments to subrecipients and vendors. 2

Section 1512(d) requires that each Federal agency make recipient information publicly available
on a Web site.

Office of Management and Budget Implementing Guidance

On June 22, 2009, OMB issued implementing guidance (memorandum M-09-21) for section
1512 of the Recovery Act that requires recipients to report detailed information on projects
funded by the Recovery Act. This guidance applies to grants, loans, tribal agreements,
cooperative agreements, and other forms of assistance. An interim final rule amended the
Federal Acquisition Regulation (FAR) to require contractors to report on the use of Recovery
Act funds (74 Fed. Reg. 14639 (Mar. 31, 2009)). OMB published an unnumbered memorandum
on September 30, 2009, emphasizing that the interim rule remains in effect for contractors and
describing the requirements for agencies to review contractor reports and take appropriate
action. 3

Prime recipients of Recovery Act funding, as owners of the data submitted, have the principal
responsibility for the quality of the information submitted. Subrecipients delegated to report on
behalf of prime recipients share in this responsibility. Agencies that fund Recovery Act projects
and activities are responsible for providing oversight of recipient data quality.

Data quality is defined in M-09-21 as the steps to improve the accuracy, completeness, and
timely reporting of information. Section 4.2 of M-09-21 specifies that Federal agencies should
perform limited data-quality reviews intended to identify material omissions and/or significant
reporting errors in the reported information and should notify recipients of the need to make
appropriate and timely changes.

       Material omissions are defined as those instances in which required data are not reported
        or reported information is not otherwise responsive to the data requested. Such omissions
        would result in significant risk that the public will not be fully informed of the status of a
        Recovery Act project.

       Significant reporting errors are defined as those instances in which required data are
        not reported accurately. Such reporting errors would result in significant risk that the
        public will be misled or confused by the recipient report.

Section 3.1 of M-09-21 requires that the information reported by all recipients and subrecipients
of Recovery Act funds be submitted through www.federalreporting.gov, reviewed by the funding
agency, and published on www.recovery.gov. Section 3.2 describes the timeline for submission,

2
 A vendor is a dealer, distributor, merchant, or other seller providing goods or services for a Federal program. A
recipient or subrecipient may purchase from vendors those goods or services needed to carry out a project (Office of
Management and Budget (OMB) memorandum M-09-21, p. 7 (June 22, 2009)).
3
OMB’s “Interim Guidance on Reviewing Contractor Reports on the Use of Recovery Act Funds in Accordance
with FAR Clause 52.204-11.”


                                                         2
review, and publication of recipient information. The first reporting period covered February 17
through September 30, 2009.

Section 4.2 of M-09-21 states that oversight authorities, which include OMB, the Recovery
Accountability and Transparency Board (Recovery Board), and Federal Inspectors General (IG),
establish data quality expectations, establish data and technical standards to promote consistency,
and coordinate any centralized reviews of data quality.

Recovery Accountability and Transparency Board

Section 1521 of the Recovery Act created the Recovery Board, which comprises a chair and IGs
from 12 Federal agencies. The Recovery Board’s mission is to promote accountability by
coordinating and conducting oversight of Recovery Act funds to prevent fraud, waste, and abuse
and to foster transparency of Recovery Act spending by providing the public with accurate, user-
friendly information. The Recovery Act authorized the Recovery Board to conduct its own
independent audits and reviews of funds and to collaborate on reviews with Federal IGs.

The Board issues quarterly and annual reports on its oversight findings and, if necessary, “flash
reports” on matters that require immediate attention. In addition, the Board maintains
www.recovery.gov so that the American people can see how Recovery Act funds are being
distributed by Federal agencies and used by recipients. IG reports related to the Recovery Act
are posted on www.recovery.gov.

Inspectors General Assessments of Federal Agencies’ Data-Quality Review Processes

To help meet its mandate, the Recovery Board requested that the 29 IGs of Federal agencies
receiving Recovery Act funds determine whether the agencies had processes in place to perform
limited data-quality reviews of recipient-reported information and to notify recipients of the need
to make appropriate and timely changes. The Recovery Board worked with the IGs of the U.S.
Department of Health and Human Services, the National Endowment for the Arts, and the U.S.
Department of Agriculture to develop an audit guide for these assessments, called “Data Quality
Review Guide for the Inspector General Community.”

Some IGs informed the Recovery Board that they did not participate in the assessments because
the agencies for which they have oversight authority made few or no grant awards under the
Recovery Act. Other IGs informed the Recovery Board that they did not participate because
OMB’s final guidance for reviewing contractor information was not available until
September 30, 2009.

OBJECTIVE, SCOPE, AND METHODOLOGY

Objective

Our objective was to summarize 21 IG reports on Federal agencies’ processes for (1) performing
limited data-quality reviews of recipient-reported information on the use of Recovery Act funds
and (2) notifying recipients of the need to make appropriate and timely changes.



                                                 3
Scope and Methodology

This report summarizes the results of 21 reports issued by 20 IGs as of November 3, 2009. Each
report determined whether the Federal agency had designed a process to (1) perform limited
data-quality reviews intended to identify material omissions and/or significant reporting errors in
information reported by recipients of Recovery Act funds and (2) notify recipients of the need to
make appropriate and timely changes. See the Appendix for a list of the agencies reviewed and
links to the IG reports.

Fifteen of the twenty IGs assessed agency processes for reviewing information reported by both
grantees and contractors. The five other IGs (shown in the Appendix) advised the Recovery
Board that they assessed agency processes only for grantees because the final OMB guidance for
contractors was not available until September 30, 2009.

Because many of the IGs’ assessments were conducted before the recipients reported and
corrected data, the objective of the IGs’ assessments did not include determining whether the
agencies’ processes for performing limited data-quality reviews and notifying the recipients of
appropriate and timely changes operated effectively. However, most of the 20 IGs indicated that
they intend to evaluate the effectiveness of agency processes in future reviews.

To accomplish our objective, we reviewed the 21 IG reports and compiled and analyzed the
results.

                                    RESULTS OF REVIEW

Seventeen of the twenty-one IG reports indicated that the Federal agencies had designed
processes to (1) perform limited data-quality reviews intended to identify material omissions
and/or significant reporting errors in information reported by recipients of Recovery Act funds
and (2) notify recipients of the need to make appropriate and timely changes. Five of the
seventeen reports provided suggestions for refining or improving those processes or for
addressing quality assurance challenges.

The remaining four reports contained findings related to the processes for performing limited
data-quality reviews:

      The Department of Agriculture IG reported that the agency had provided significant
       information and assistance to its components but had not established an internal control
       structure with formal policies and procedures that provided a clear indication of agency
       versus component responsibility for determining the completeness and validity of
       recipient reporting. The IG recommended that the agency establish such an internal
       control structure. Agency management concurred with the finding and recommendation.

      The Small Business Administration IG reported that the agency had taken steps to ensure
       that recipients complied with reporting requirements, including issuing an information
       notice specifying what contracting and grant officers need to know about
       www.federalreporting.gov and disseminating a procedural notice outlining specific


                                                 4
        recipient reporting requirements. However, the information notice did not adequately
        define the review process for identifying material omissions and/or significant reporting
        errors. In addition, one of the agency’s components had not yet drafted a policy for
        reviewing recipient data. The IG recommended that the agency further define its data-
        quality review process for recipient reports. Agency management agreed with the results
        of the review.

       The Department of Homeland Security IG reported that the agency’s process for
        verifying the completeness and accuracy of recipient data was evolving. For example,
        the agency had issued general guidance for reviewing contractor reports, and several
        components had developed approaches for substantiating the accuracy of recipient
        reporting. However, the agency had not yet issued detailed procedures for performing
        limited data-quality reviews of recipient information to identify material omissions and/or
        significant reporting errors. The IG recommended that detailed policies and procedures
        be issued agencywide. Agency management generally concurred with the finding and
        recommendation.

       The Department of Defense IG reported (D-2010-RAM-002) that the agency had neither
        a well-defined process for performing limited data-quality reviews nor specific policies
        and procedures to perform these reviews. 4 The agency had provided a high-level
        description that did not include roles and responsibilities, a detailed description of
        methodology, processes to identify material omissions and/or significant reporting errors,
        or milestones. The IG suggested actions to correct these deficiencies. When OMB
        issued its interim guidance on reviewing contractors’ reports, on September 30, 2009, the
        first report was due in less than 2 weeks. The IG reported: “OMB’s issuing its guidance
        so late may have impacted the Department’s ability to establish a well-defined process.”
        We were informed that IG staff met with agency officials, who provided technical
        comments on a draft, and that agency comments were incorporated where appropriate.

CONCLUSION

The Recovery Board requested that the IGs of Federal agencies receiving Recovery Act funds
assess the agencies’ processes for performing limited data-quality reviews of recipient-reported
information. Twenty IGs issued twenty-one reports on their agencies’ processes to (1) perform
limited data-quality reviews intended to identify material omissions and/or significant reporting
errors and (2) notify recipients of the need to make appropriate and timely changes. Of the 21
reports, 12 contained no findings or suggestions for improvements, 5 contained no findings but
provided suggestions for refining or improving the processes, and 4 contained findings related to
deficiencies in the processes. These reports demonstrate that the Recovery Board, IGs, and
agencies have worked together to provide transparency and accountability in the use of Recovery
Act funds.




4
 In a separate report (D-2010-RAM-001), the Department of Defense IG reported that the U.S. Army Corps of
Engineers had developed processes to perform limited data-quality reviews for its Civil Works Programs.


                                                      5
APPENDIX
                                                                                                  Page 1 of 2


       APPENDIX: INSPECTORS GENERAL REPORTS ON FEDERAL AGENCIES’
                     DATA-QUALITY REVIEW PROCESSES

                         Process for
Agency Reviewed          Contracts                              Link to Issued Report
                         Reviewed?
Corporation for             No           http://www.recovery.gov/Accountability/inspectors/Documents/
National and                             20091030-cncs-limited-quality-reviews-processes.pdf
Community Service
Department of                Yes         http://www.recovery.gov/Accountability/inspectors/Documents/
Agriculture                              11703-1-HQ%20final%20report%20issued%20102309.pdf

Department of                Yes         http://www.recovery.gov/Accountability/inspectors/Documents/
Commerce                                 Final%20Audit%20Report%20ARR-19847.pdf

Department of                Yes         http://www.recovery.gov/Accountability/inspectors/Documents/
Defense 1                                D%202010%20RAM%20002%20Final%20Report%20508%20
                                         Compliant.pdf

                                         http://www.recovery.gov/Accountability/inspectors/Documents/
                                         MEMORANDUM%20NO%20%20%20D-2010-RAM-
                                         001compliant.pdf

Department of                Yes         http://www.recovery.gov/Accountability/inspectors/Documents/
Education                                A19J0004%20-
                                         %20Issued%20Final%20Audit%20Report%2010-29-09.pdf

Department of                Yes         http://www.recovery.gov/Accountability/inspectors/Documents/
Energy                                   DOE%20OIG%20Data%20Quality%20Report.pdf

Department of                Yes         http://www.recovery.gov/Accountability/inspectors/Documents/
Health and Human                         90900113.pdf
Services
Department of                Yes         http://www.recovery.gov/Accountability/inspectors/Documents/
Homeland Security                        OIG_10-08_Oct09.pdf

Department of                 No         http://www.recovery.gov/Accountability/inspectors/Documents/
Housing and Urban                        HUD-OIG%20Audit%20-
Development                              %20Review%20of%20HUD's%20Process%20for%20Monitori
                                         ng%20Recipient%20Reporting%20for%20ARRA%202009.pdf




  1
   The Department of Defense Inspector General issued two reports: D-2010-RAM-002 on the Department’s military
  programs and D-2010-RAM-001 on the U.S. Army Corps of Engineers’ Civil Works Programs.
                                                                                   Page 2 of 2


                      Process for
Agency Reviewed       Contracts                        Link to Issued Report
                      Reviewed?
Department of the        Yes        http://www.recovery.gov/Accountability/inspectors/Documents/
Interior                            Interim%20Audit%20Report%20-
                                    %20Data%20Quality%20F10-30-09.pdf

Department of             No        http://www.recovery.gov/Accountability/inspectors/Documents/
Justice                             DOJ%20Data%20Quality%20Review%20Report%2010-30-
                                    09%20Final.pdf

Department of            Yes        http://www.recovery.gov/Accountability/inspectors/Documents/
Labor                               FINAL%20REPORT%20ON%20DATA%20QUALITY%20R
                                    EV%20NOV%2030.pdf

Department of State      Yes        http://www.recovery.gov/Accountability/inspectors/Documents/
                                    20091029-dos-processes-implementing-ARRA.pdf

Department of            Yes        http://www.recovery.gov/Accountability/inspectors/Documents/
Transportation                      Final%20Report%20on%20Data%20Quality%20100609.pdf

Department of            Yes        http://www.recovery.gov/Accountability/inspectors/Documents/
Veterans Affairs                    VAOIG-09-01814-16.pdf

Environmental            Yes        http://www.recovery.gov/Accountability/inspectors/Documents/
Protection Agency                   20091029-10-R-0020-Section%20508%20Compliant.pdf

National                  No        http://www.recovery.gov/Accountability/inspectors/Documents/
Endowment for                       Data%20Quality%20Report%20-%20NEA%20-%20ARRA-10-
the Arts                            01.pdf

National Science          No        http://www.recovery.gov/Accountability/inspectors/Documents/
Foundation                          Final%20Report%20NSF.pdf

Small Business           Yes        http://www.recovery.gov/Accountability/inspectors/Documents/
Administration                      Final%20Data%20Quality%20Review%20Report%2010_30_0
                                    9.pdf

Social Security          Yes        http://www.recovery.gov/Accountability/inspectors/Documents/
Administration                      A-15-10-21045.pdf
